HHS/OIG, Audit - "Review of Quality Improvement Organization in
Maryland," (A-03-06-01650)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Quality Improvement Organization in Maryland," (A-03-06-01650)
April 14, 2008
Complete
Text of Report is available in PDF format (586 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that we assess the
fiscal integrity of the Medicare Quality Improvement Organizations (QIO) with
respect to six specified fiscal integrity areas.  We found that from
November 1, 2002, through October 31, 2005, Marylands QIO incurred
approximately $1.6 million of costs that were improperly classified as indirect
costs.  These costs included direct costs totaling $89,026 for recruiting that
should have been charged to the QIO contract and rents and other costs totaling
$1,548,509 attributable to specific contracts with State governments that should
not have been included in the indirect costs.  Because indirect costs are used
to calculate the indirect cost rates, inflating these costs may have resulted in
inflated indirect costs charged to this scope of work (SOW).
We recommended that the QIO work with CMS to resolve the status of the
$1,637,535 in questioned indirect costs as part of the final settlement of the
SOW.  The QIO took exception to our recommendation but stated that it was
changing its accounting practices.